No. 20-291
IN THE SUPREME COURT OF THE UNITED STATES
_________________
JAMELL BIRT, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 18th day of November, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7354 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on November 18, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 18, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0291
BIRT, JAMELL
USA

DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15TH STREET, NW
WASHINGTON, DC 20005
212-549-2611
DCOLE@ACLU.ORG
ZACHARY CHARLES SCHAUF
JENNER & BLOCK, LLP
1099 NEW YORK AVE., NW
WASHINGTON, DC 20001
202-637-6379
ZSCHAUF@JENNER.COM
DAVID J. ZIMMER
GOODWIN PROCTER LLP
100 NORTHERN AVE.
BOSTON, MA 02210
617-570-1000
DZIMMER@GOODWINLAW.COM

